                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: 1-04                                                                            Page 1 of 1
                                                                                                              I
                 We initiated an investigation after receiving allegations that the subject' and owner of a
         cornpang submitted false statements to Department of Energy (DOE) and NSF regarding Small
         Business Innovation Research (SBIR) proposals and reports. The allegation stated that the
         subject used, without authority, propriety information from a company3that subject had worked
         for previously. In 2003, the subject received 3 SBIR awards from DOE (totaling approximately
         $300,000) and a single SBIR award from N S F ~($100,000). The subject submitted Phase I1
         proposals to NSF and DOE, however, the Phase I1 proposals were not funded

                The proposals submitted by the subject to NSF and DOE listed researchers with vast
         experience and education in developing electronic and information systems. When contacted for
         this investigation, these individuals stated that their resumes were provided to the previous
         company in 2002, but that the subject did not have authorization to use their names and resumes
         in 2003, after he started his own company. A DCAA audit report documented that the subject
         overpaid himself by charging an excess of 900 hours and a $20,000 bonus from the DOE and
         NSF SBIR awards. The subject also paid an Engineer and a Technician, although neither had the
         same education or experience as the researchers listed in the proposals. No other employees
         worked for the subject's company.

                When interviewed, the subject admitted that he did not hire the people listed in his
         proposals and that he received their resumes while working at the previous company. A
         company's research team is material to the decision making process for SBIR awards.

                 The Civil Division, US Attorney's Office, Baltimore MD, initially accepted the case.
         However, the Assistant US Attorney declined the case because he determined it would not be
         cost effective to pursue litigation.

                The subject's company went out of business in early 2004 and the subject has not
         submitted a proposal nor worked under a Federal grant or contract in five years.

                    Accordingly, this case is closed.




                                                                                                              1
                                                                                                              I
VSF OIG Form 2 (1 1/02)
